Supreme Court, U.S.
FILED

OFFICE OF THE CLFRK

No.

IN THE

Supreme Court of tfje Umteb States;
Dana Albrecht,
Petitioner,
v.

Katherine Albrecht,
Respondent.
On Petition for a Writ of Certiorari to the
Supreme Court of New Hampshire

PETITION FOR A WRIT OF CERTIORARI
DANA ALBRECHT
Petitioner Pro Se
131 D.W. Hwy #235
Nashua, NH 03060
(603) 809-1097
dana. albrecht@hushmail. com

1

QUESTIONS PRESENTED
1. The Supreme Court of New Hampshire was
asked to consider whether California law controls
whether real property in California owned by a
California trust is part of a New Hampshire marital
estate. It declined to address this question of law.
The question presented is: Does this constitute “a
policy of ‘hostility to the public Acts’” of a sister
State?
2. The Third Circuit Court of Appeals recently
“observed we will reach ‘a pure question of law’ even
if not raised below, where refusal to reach the issue
would result in a miscarriage of justice.” See Barna
v. Bd. ofSch. Dirs. of Panther Valley Sch. Dist., 877
F.3d 136, 147 (2017). The question presented is:
Whether, or under what circumstances, does the Due
Process Clause require an appellate court to reach a
“pure question of law” if it believes the question has
not been fully considered below?

11

LIST OF ALL PROCEEDINGS
Dana Albrecht v. Katherine Albrecht
Ninth Circuit Family Division,
Nashua, New Hampshire
Case No. 659-2016-DM-00288
Decision Date: April 27, 2018 (App. 12a)
Date of Order Denying Motion for Reconsideration:
June 6, 2018 (App. 38a)
State v. Dana Albrecht
Ninth Circuit District Division,
Nashua, New Hampshire
Case No. 459-2017-CR-05023
Decision Date: August 6, 2018
Notice of Decision: Finding of “Not Guilty.” (App.
40a)
Dana Albrecht v. Katherine Albrecht
Supreme Court of New Hampshire
Case No. 2018-0379
Decision Date: April 27, 2018 (App. 3a)
Date of Order Denying Motion for Reconsideration:
June 6, 2018 (App. 10a)

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED.....

1

LIST OF ALL PROCEEDINGS

.11

TABLE OF CONTENTS

m

TABLE OF AUTHORITIES

Vll

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS AND ORDER BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED...........................

1

INTRODUCTION

2

STATEMENT OF CASE

2

A. Background

2

B. Lower Court Record

4

C. Conflict of Laws

6

D. Preservation and “Waiver” vs. “Forfeiture”

7

REASONS FOR GRANTING THE PETITION....... 10
I. A question presented raises a conflict of laws
between the sovereign States. Rights in
immovable property are at issue
10
II. In family law and estate cases, the question of
how to determine the disposition of immovables

IV

located in a jurisdiction that differs from the
forum is important and likely to be frequently
recurring.
11
A. Trial courts are frequently asked to award
property upon the dissolution of a marriage or
11
the settlement of an estate
B. The subject of property law conflicts has
undergone recent academic scrutiny by the
12
Harvard Law School
III. This Court has been sharply divided on when,
and under what circumstances, a case reflects a
special, and constitutionally forbidden, ‘“policy of
hostility to the public Acts’ of a sister State.” It
has also been sharply divided on issues of
jurisdiction between the sovereign States
13
IV. This Court has very recently become the Court
of last resort able to review the disposition of
California real estate in the settlement of a
California trust estate, even though the issue has
never been heard by a California court
15
V. A question presented has divided the Third
Circuit Court of Appeals and the Supreme Court
of New Hampshire
16
A. Each court has taken a substantially
different approach when determining whether
issues should be reached by an appellate court.
16

V

B. The Third Circuit Court’s decision in Barna
has received nationwide press coverage by the
American Bar Association as a “Top Story.”.... 19
C. The question of whether, and under what
circumstances, an issue is either clearly
preserved for appellate review or may otherwise
be reached is of immense public importance,
and of national significance
20
VI. The Supreme Court of New Hampshire’s
decision is wrong and deeply troubling.
21
A. The court declined to consider Petitioner’s
argument that California law controls whether
real property in California owned by a
California trust is part of a New Hampshire
marital estate
21
B. The court failed to apply the required due
process analysis
21
C. New Hampshire has no sufficient policy
considerations to warrant its refusal to consider
or apply California’s laws
23
CONCLUSION

25

APPENDIX.

la

Opinion of the Supreme Court of New Hampshire
(March 14, 2019)
3a
Order of the New Hampshire Supreme Court
Denying Petitioner’s Motion for Rehearing and
Reconsideration (April 15, 2019)
10a

VI

Opinion of the New Hampshire Circuit Court, Ninth
Circuit, Family Division, Nashua (April 28, 2018) 12a
Order of the New Hampshire Circuit Court, Ninth
Circuit, Family Division, Nashua, Denying
Petitioner’s Motion for Reconsideration (June 6,
2018)
38a
Order of the New Hampshire Circuit Court, Ninth
Circuit, District Division, Nashua, (August 6, 2018)
.................................................................................... 40a
Petitioner’s
Motion
for
Rehearing
and
Reconsideration in the Supreme Court of New
Hampshire (March 22, 2019)
41a
Respondent’s Objection to Motion for Rehearing and
Reconsideration in the Supreme Court of New
Hampshire (March 29, 2019)...
50a
Relevant Statutory Provisions

53a

Ca Fam Code § 752.

53a

Ca Fam Code § 770.

53a

NH RSA § 458:16-a

54a

Vll

TABLE OF AUTHORITIES
Cases
Bagot v. Ashcroft, 398 F.3d 252, 256 (3d Cir. 2005). 18
Barefoot Architect, Inc. v. Bunge, 632 F.3d 822, 835
(3d Cir. 2011)
18
Barna v. Bd. of Sch. Dirs. of Panther Valley Sch.
Dist., 877 F.3d 136, 147 (2017)
i, 9, 18, 20p.
Carroll v. Lanza, 349 U.S. 408, 413, 75 S.Ct. 804, 99
L.Ed. 1183 (1955)
13
City of New York v. Mickalis Pawn Shop, LLC, 645
F.3d 114, 140 (2d Cir. 2011)
18
Council of Alt. Political Parties v. Hooks, 179 F.3d
64, 69 (3d Cir. 1999)
18
Daboul v. Town of Hampton, 124 N.H. 307, 471 A.2d
1148 (1983)....................... ..................................
17
Flaherty v. Flaherty, 138 N.H. 337, 340 (1994)

6

Franchise Tax Bd. of Cal. v. Hyatt, 136 S. Ct. 1277
(2016)
13
Franchise Tax Bd. of Cal. v. Hyatt, 139 S. Ct. 1485
(2019)............................................................
14p.
Garza v. Idaho, 139 S. Ct. 738, 741 (2019)

20

Hormel v. Helvering, 312 U.S. 552 (1941)..

16, 20p.

Vlll

In the Matter of McAndrews & Woodson, 193 A.3d
834, 840 N.H. (2018)
20
Loretangeli u. Critelli, 853 F.2d 186, 189-90 n.5 (3d
Cir. 1988).............................................................
18
Mathews v. Eldridge, 424 U.S. 319, 334 (1976)

22

Nevada v. Hall, 440 U.S. 410, 99 S.Ct. 1182, 59
L.Ed.2d 416 (1979)
14p.
OHearne v. McClammer, 163 N.H. 430, 438-39
(2012)
8, 17
Permanent Mission of India v. City of NY, 551 U.S.
193 (2007)
15
Sklar Realty v. Town of Merrimack, 125 N.H. 321
(1984)
17
SNCR Corp. v. Greene, 152 N.H. 223, 224, 876 A.2d
245 (2005)
17
State v. Sands, 123 N.H. 570, 595, 467 A.2d 202, 21718 (1983).................................................................. 17
United States v. Olano, 507 U.S. 725, 733 (1993)
16, 20p.

8,

Constitutional Provisions
Due Process Clause (U.S. Const. Amend. XIV, §!)....!
Full Faith and Credit Clause (U.S. Const. Art. IV,
1,13
§D

IX

Statutes
28 U.S.C. § 1257(a).........

1

28 U.S.C. § 1604.............

15

28 U.S.C. § 1605(a)(4)....

16

Ca Fam Code § 752........

...2,7,10

Ca Fam Code § 770(a)(2)

2,3,6,10

New Hampshire Family Division Rule 1.26 F
NH RSA 458:16-a

5

2,6,10

NH RSA 635:2

5

NH RSA 644:9

5

Other Authorities
“Data & Reports” from the New Hampshire Judicial
Branch
11
2018 Court Statistics Report, Judicial Council of
California
11
Pitzen, Thea C. Appellate Review Allowed Despite
Failure to Preserve Issue Below. American Bar
Association, May 20, 2018
19
Singer, Joseph William. Property Law Conflicts.
Washburn Law Journal, vol. 54, no. 1 (Fall 2014)...11

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Dana Albrecht respectfully petitions
this Court for a writ of certiorari to review the
judgment of the Supreme Court of New Hampshire
in this case.
OPINIONS AND ORDER BELOW
The Supreme Court of New Hampshire’s opinions
(Case No. 2018-0379) are unpublished. See App.
3a, 10a. The opinion of the Ninth Circuit Family
Division Court, Nashua, New Hampshire (Case No.
659-2016-DM-00288) is unpublished. See App.
12a,38a.
JURISDICTION
The Supreme Court of New Hampshire entered
its judgment on March 14, 2019 and denied a motion
for rehearing and reconsideration on April 15, 2019.
This Court has jurisdiction pursuant to 28 U.S.C. §
1257(a).
CONSTITUTIONAL PROVISIONS AND
STATUTES INVOLVED
Section One of the Fourteenth Amendment to the
United States Constitution provides that “[N]or shall
any State deprive any person of life, liberty, or
property, without due process of law ...” Article Four,

2

Section One of the United States Constitution
provides that “Full Faith and Credit shall be given in
each State to the public Acts, Records, and judicial
Proceedings of every other State.” The relevant
“public Acts” of the States are Ca Fam Code § 752,
Ca Fam Code § 770(a)(2), and NH RSA 458:16-a.
INTRODUCTION
This case concerns a property dispute over
California real estate arising from the dissolution of
a marriage by a New Hampshire court and the
settlement of a California estate. Rights in
immovable property are at issue.
California real estate was included in a marital
estate by a New Hampshire family court for purposes
of an “equitable division of property between the
parties.” See NH RSA 458:16-a.
The Supreme Court of New Hampshire affirmed
the family court’s decision.
This Honorable Court should review, and reverse,
the lower court’s decision.
STATEMENT OF CASE
A. Background
Petitioner Dana Albrecht and Respondent
Katherine Albrecht (the “parties”) were married in

3

California on November 4, 1996. They have four
children.
Petitioner’s mother, Myra Albrecht, owned 200
acres of unimproved rural land, APN 099-140-014GOO, located in Shasta County, California, as
"separate property” under Ca Fam Code § 770(a)(2),
henceforth referred to as the “California real estate.”
The parties moved from San Jose, California to
Hollis, New Hampshire in 2001.
On September 30, 2003, the California real estate
was transferred into the “The David and Myra
Albrecht Living Trust,” governed by California law,
and hereinafter referred to as the “trust estate.”
Myra Albrecht passed away at her home in San
Jose, California, on May 6, 2014. Consequently,
Petitioner’s father David Albrecht was the surviving
trustee of the trust estate.
The terms of the trust estate provided for Myra
Albrecht’s “separate property interest,” or the
“California real estate,” to be distributed to
Petitioner. The trust estate did not provide for any
property to be distributed to Respondent.
The surviving trustee, David Albrecht, has never
distributed Myra Albrecht’s “separate property
interest” to Petitioner as the terms of the trust estate
dictate. Consequently, legal title to the California
real estate continues to be held by the trust estate
and not by either or both parties.

4
B. Lower Court Record
The parties separated on April 8, 2016. Litigated
divorce proceedings in a New Hampshire family
court followed.
On April 15, 2016, Petitioner entered a petition
for legal separation in the family court.
On June 5, 2017, both parties entered a partial
final stipulation in the family court that, for
purposes of the proceedings, the value of the
California real estate was $160,000.
However, the parties did not agree on whether
the California real estate should be included in the
marital estate for purposes of property settlement
upon dissolution of the parties’ marriage.
The family court held five days of hearings in a
bifurcated trial. On August 7, 2017 and August 9,
2017 the family court heard parenting matters, and
on September 1, 2017 it entered a parenting plan.
With the family court’s permission, on September
1, 2017, Respondent relocated with the parties’
minor children from New Hampshire to Pasadena,
California.
On September 30, 2017, both parties participated
in an agreed-upon walk-through of the marital home
in Hollis, New Hampshire with a realtor.
On October 5, 2017 and October 6, 2017, the
family court heard financial matters. The latter

5
hearing was adjourned during Respondent’s crossexamination.
On October 7, 2017, in a separate proceeding,
Petitioner was arrested and charged with criminal
trespass (NH RSA 635:2) and violation of privacy
(NH RSA 644:9) in the district court arising from the
events of September 30, 2017. Both are class A
misdemeanors.
On February 14, 2018, the family court continued
Respondent’s cross-examination and concluded the
trial with its fifth and final day of hearings.
On April 27, 2018, the family court entered its
final divorce decree. Pursuant to New Hampshire
Family Division Rule 1.26 F., (“Motions to
Reconsider”), both parties then entered motions for
reconsideration and other post-decision relief in the
family court.
On May 7, 2018, Petitioner entered his motion for
reconsideration with the family court. On May 24,
2018, Respondent entered her late objection with
permission of the court. On May 31, 2018, Petitioner
entered his replication1. On June 6, 2018, the family

1

This replication was described by the Supreme Court of
New Hampshire in its order dated March 14, 2019 as
document (3) of the supplemental appendix, i.e. “the
petitioner’s replication to the respondent’s objection to his
motion for reconsideration.” The court stated arguments
made here were not preserved.

6

court ruled on outstanding pleadings for post­
decision relief.
On July 2, 2018, a notice of appeal to the
Supreme Court of New Hampshire was entered in
the family court. An appeal to the Supreme Court of
New Hampshire followed.
On August 6, 2018, Petitioner was found “Not
Guilty” on all criminal charges by the district court.
On March 14, 2019, the Supreme Court of New
Hampshire entered its judgment.
Both parties were represented by counsel in the
trial court. Both parties were represented by counsel
in the Supreme Court of New Hampshire until
March 22, 2019.
C. Conflict of Laws
In its opinion, the Supreme Court of New
Hampshire stated that the relevant New Hampshire
statute, NH RSA 458:16-a, /, “does not require that a
party have received a physical deed to property in
order for the property to be included in the marital
estate.” Accordingly, it concluded “that the trial court
correctly included the California real estate in the
marital estate,” citing Flaherty v. Flaherty, 138 N.H.
337,340(1994).
Under California law, “property acquired by a
person after marriage by gift, bequest, devise, or
descent” is considered “separate property.” Ca Fam

7
Code § 770(a)(2). “Except as otherwise provided by
statute, neither spouse has any interest in the
separate property of the other” in California. Ca
Fam Code § 752.
D. Preservation and “Waiver” vs. “Forfeiture”
The Supreme Court of New Hampshire stated
that “the petitioner had failed to preserve his
argument that California law governed whether
certain real estate in California was part of the
marital estate subject to division in the parties’ New
Hampshire divorce.” The court further stated
“Accordingly, we will not address the argument.”
The Supreme Court of New Hampshire also
stated that three documents in the trial court record
did not establish that Petitioner preserved his
argument. The court described these documents as:
(1) a trial memo that states only that,
under California law, inherited property is
separate property and not subject to
division upon divorce; (2) the petitioner’s
requests for findings, which request a
finding that his mother owned the
California real estate as separate property;
and (3) the petitioner’s replication to the
respondent’s objection to his motion for
reconsideration. The replication2 argues
2 This replication was entered in the family court on May 31,
2018. It was denied by the family court on June 6, 2018.

8

that, under California law, inherited
property is separate property and not
subject to division and that “it is
appropriate for the Court to consider the
doctrine of ‘Conflict of Laws in the United
States’ with regard to [the California real
estate], taking into account both California
and New Hampshire law.”
Citing O’Hearne v. McClammer, 163 N.H. 430, 43839 (2012), the Supreme Court of New Hampshire
stated that an “argument raised for first time in
reply3 to objection to motion for reconsideration [is]
not preserved.”
The Supreme Court of New Hampshire did not
state whether it believed Petitioner either forfeited
or waived his argument. “Waiver is different from
forfeiture. Whereas forfeiture is the failure to make
the timely assertion of a right, waiver is the
‘intentional relinquishment or abandonment of a
known right.’” See United States v. Olano, 507 U.S.
725,733(1993),
On March 22, 2019, Petitioner instructed his
counsel to enter a notice of withdrawal in the
Supreme Court of New Hampshire. Petitioner then
entered his notice of appearance, Pro se.

Notice of appeal was entered on July 2, 2018.
3 Id.

9
On March 22, 2019, Petitioner next entered a
motion for rehearing and reconsideration in the
Supreme Court of New Hampshire.
The court was then asked to consider4 that the
Third Circuit Court of Appeals “observed we will
reach ‘a pure question of law’ even if not raised
below, where refusal to reach the issue would result
in a miscarriage of justice.” See Barna v. Bd. of Sch.
Dirs. of Panther Valley Sch. Dist., 877 F.3d 136, 147
(2017). However, decisions by the Third Circuit
Court of Appeals are not binding on the Supreme
Court of New Hampshire.
On April 15, 2019, the Supreme Court of New
Hampshire denied the motion for rehearing and
reconsideration, thus affirming its prior judgment of
March 14, 2019 “that the trial court correctly
included the California real estate in the marital
estate.”
This petition for a writ of certiorari now follows.

4

This was raised at f 12 in Petitioner’s Motion for Rehearing
and Reconsideration entered on March 22, 2019 in the
Supreme Court of New Hampshire. The Court denied
Petitioner’s motion on April 15, 2019.

10
REASONS FOR GRANTING THE PETITION
I. A question presented raises a conflict of
laws between the sovereign States. Rights in
immovable property are at issue.
New Hampshire and California are sharply
divided on whether “property acquired by a person
after marriage by gift, bequest, devise, or descent” is
part of a marital estate.
In California, “property acquired by a person
after marriage by gift, bequest, devise, or descent” is
considered “separate property” in a marital estate.
Ca Farm Code § 770(a)(2). Whereas California
requires that “except as otherwise provided by
statute, neither spouse has any interest in the
separate property of the other,” Ca Fam Code § 752
New Hampshire requires that “property shall include
all tangible and intangible property and assets, real
or personal, belonging to either or both parties.” NH
RSA 458:16-a.

11
II. In family law and estate cases, the question
of how to determine the disposition of
immovables located in a jurisdiction that
differs from the forum is important and
likely to be frequently recurring.
A. Trial courts are frequently asked to
award property upon the dissolution of a
marriage or the settlement of an estate.
In 2018, new marital filings in California
(dissolutions, legal separations and nullities)
accounted for 134,756 cases and probate (estate,
guardianship, and conservatorship) filings accounted
for 49,152 cases5. In New Hampshire, new family
division filings in 2018 accounted for 19,843 cases
and new estate filings alone in the probate division
accounted for 6,993 cases6. Such cases frequently
determine the disposition of property.
Consequently, in many such cases, the question of
how to determine the disposition of immovables
located in a jurisdiction that differs from the forum is
a natural one.

5
6

See 2018 Court Statistics Report, Judicial Council of
California.
See “Data & Reports” from the New Hampshire Judicial
Branch,
published
on-line
at
https://www.courts.state.nh.us/cio/data-and-reports.htm

12
B. The subject of property law conflicts has
undergone recent academic scrutiny by
the Harvard Law School.
In 2014, Joseph William Singer, Bussey Professor
of Law at Harvard Law School wrote7:
What law applies to real property? At one
time the answer to this question was
simple: the law of the situs. But then the
choice-of-law revolution came and legal
scholars began to see reasons to depart
from the situs law rule. As interest
analysis
and
the
most-significantrelationship test developed, legal theorists
undermined the logical and normative
basis for such a simple solution to the
choice-of-law problem. In recent years,
however, the situs rule has been
rehabilitated and increasingly defended by
some scholars while others have continued
to subject it to criticism. And in fact, the
rule was never dislodged in practice and it
remained the presumptive rule in the
Second Restatement of Conflict of Laws.
Even today, courts generally apply situs
law to real property issues, although
important exceptions have developed over
time and some brave judges have deviated
from the rule in certain classes of Cases.
7

See Singer, Joseph William. Property Law Conflicts.
Washburn Law Journal, vol. 54, no. 1 (Fall 2014).

13
Rather than argue for or against the rule, I
propose to explain the circumstances
under which situs law clearly should and
clearly should not apply. I also propose to
explain the cases that are hard because
they present value conflicts generating
good reasons both for application of situs
law and for deviating from it.
Singer notes that “courts generally apply situs
law to real property issues,” although he notes that
“important exceptions have developed over time.”
Consequently, this case offers this Court an
opportunity to review whether the Supreme Court of
New Hampshire’s application of forum law in a real
property dispute constitutes any such “important
exception.”
III.

This Court has been sharply divided on
when, and under what circumstances, a
case
reflects
a
special,
and
constitutionally forbidden, ‘“policy of
hostility to the public Acts’ of a sister
State.” It has also been sharply divided
on issues of jurisdiction between the
sovereign States.

Carroll’s principle is that the Full Faith and
Credit Clause proscribes a State from adopting a
‘“policy of hostility to the public Acts’ of another
State,” as shown when “it has ‘no sufficient policy

14
considerations to warrant’ its refusal to apply the
other State’s laws.” See Carroll v. Lanza, 349 U.S.
408, 413, 75 S.Ct. 804, 99 L.Ed. 1183 (1955).
In Franchise Tax Bd. of Cal. v. Hyatt, 136 S. Ct.
1277 (2016), this Court reversed a decision by the
Supreme Court of Nevada, finding that:
Insofar as the Nevada Supreme Court has
declined to apply California law in favor of
a special rule of Nevada law that is hostile
to its sister States, we find its decision
unconstitutional. We vacate its judgment
and remand the case for further
proceedings not inconsistent with this
opinion.
However, at that time this Court stopped short of
overturning Nevada v. Hall, 440 U.S. 410, 99 S.Ct.
1182, 59 L.Ed.2d 416 (1979), noting in its decision
that:
The board has asked us to overrule Hall
and hold that the Nevada courts lack
jurisdiction to hear this lawsuit. The Court
is equally divided on this question, and we
consequently affirm the Nevada courts’
exercise of jurisdiction over California.
Subsequently, in Franchise Tax Bd. of Cal. v.
Hyatt, 139 S. Ct. 1485 (2019), this Court then
reversed itself and held that:

15
“Nevada v. Hall is overruled; States retain
their sovereign immunity from private
suits brought in courts of other States.”
IV.

This Court has very recently become
the Court of last resort able to review
the disposition of California real
estate in the settlement of a California
trust estate, even though the issue has
never been heard by a California
court.

Prior to this Court’s recent decision in Hyatt
(2019), if rights in property in California acquired by
succession or gift or rights in immovable property
situated in California were at issue, Nevada v. Hall
would have permitted a private citizen of California
to bring suit against an agency of a sister State in a
California court.
As this Court recently noted, the Hall majority’s
view “rested primarily on the idea that the States
maintained sovereign immunity vis-a-vis each other
in the same way that foreign nations do. Pp. 4-5.”
See Hyatt (2019). Similarly, a foreign state is
normally, but not always, immune from the
jurisdiction of the courts of the United States and of
the States. See 28 U.S.C. § 1604.
There is an exception for immunity for foreign
states when “rights in property in the United States

16
acquired by succession or gift or rights in immovable
property situated in the United States are in issue.”
See 28 U.S.C. § 1605(a)(4), as affirmed by this Court
in Permanent Mission of India v. City of NY, 551 U.S.
193 (2007).
However, this Court’s recent ruling in Hyatt
(2019) provides no similar exception for a sister
State. Consequently, an agency of a sister State may
no longer be hailed into a California court by a
private citizen of California, even if rights in
property in California acquired by succession or gift
or rights in immovable property situated in
California are in issue.
Notably, this Court issued its decision in Hyatt
(2019) on May 13, 2019, after the Supreme Court of
New Hampshire denied Petitioner’s motion for
rehearing and reconsideration on April 15, 2019.
V. A question presented has divided the Third
Circuit Court of Appeals and the Supreme
Court of New Hampshire.
A. Each court has taken a substantially
different approach when determining
whether issues should be reached by an
appellate court.
Concerning the preservation of issues for
appellate review, this Court has stated in Hormel v.
Helvering, 312 U.S. 552 (1941) that:

17
Rules of practice and procedure are
devised to promote the ends of justice, not
to defeat them. A rigid and undeviating
judicially declared practice under which
courts of review would invariably and
under all circumstances decline to consider
all questions which had not previously
been specifically urged would be out of
harmony with this policy.
This Court has more recently visited this subject
in United States v. Olano, 507 U.S. 725, 733 (1993),
by distinguishing between “forfeiture” and “waiver.”
In Sklar Realty v. Town of Merrimack, 125 N.H.
321 (1984), the Supreme Court of New Hampshire
considered it:
a general tenet of judicial review, that
parties generally may not have judicial
review of matters not raised in the forum
of trial. See, e.g., Daboul v. Town of
Hampton, 124 N.H. 307, 471 A.2d 1148
(1983). We require issues to be raised at
the earliest possible time, because trial
forums should have a full opportunity to
come to sound conclusions and to correct
errors in the first instance. See State v.
Sands, 123 N.H. 570, 595, 467 A.2d 202,
217-18 (1983). This is only fair to the
parties, the trial forums and the appellate
courts.

18
In O’Hearne v. McClammer, 163 N.H. 430, 438-39
(2012), the Supreme Court of New Hampshire
reiterated its position that:
“issues must be raised at the earliest
possible time, because trial forums should
have a full opportunity to come to sound
conclusions and to correct claimed errors
in the first instance.” SNCR Corp. v.
Greene, 152 N.H. 223, 224, 876 A.2d 245
(2005) (quotation and brackets omitted).
In 2012, the Supreme Court of New Hampshire
then further narrowed its view of preservation by
also asserting that an argument raised for first time
in reply to an objection to a motion for
reconsideration in a trial court is not preserved, even
though any such argument would still have been
raised in the forum of trial prior to appeal. Id.
In Barna v. Bd. of Sch. Dirs. of Panther Valley
Sch. Dist., 877 F.3d 136, 147 (2017), adopting a
different approach, the U.S. Court of Appeals for the
Third Circuit stated that:
We have thus observed that we will reach
a “pure question of law” even if not raised
below where refusal to reach the issue
would result in a miscarriage of justice or
where the issue’s resolution is of public
importance. Bagot v. Ashcroft, 398 F.3d
252, 256 (3d Cir. 2005) (quoting

19
Loretangeli v. Critelli, 853 F.2d 186, 18990 n.5 (3d Cir. 1988)); see also Barefoot
Architect, Inc. v. Bunge, 632 F.3d 822, 835
(3d Cir. 2011) (addressing a ‘purely legal
question’ despite the appellant’s failure to
preserve the issue); City of New York u.
Mickalis Pawn Shop, LLC, 645 F.3d 114,
140 (2d Cir. 2011) (excusing a forfeiture
when the issue was ‘purely legal’ and the
default results from inadvertence);
Council of Alt. Political Parties v. Hooks,
179 F.3d 64, 69 (3d Cir. 1999) (reaching for
the ‘first time on appeal’ an issue that
‘concerns a pure question of law’).
B. The Third Circuit Court’s decision in
Bama has received nationwide press
coverage
by
the
American
Bar
Association as a “Top Story.”
On May 20, 2018, the American Bar Association,
opining that an appellate court charitably
distinguished inadvertent forfeiture from intentional
waiver, published an article8 stating that:

8

See Pitzen, Thea C. Appellate Review Allowed Despite
Failure to Preserve Issue Below. American Bar Association,
May
20,
2018.
Available
at
https://wAvw.americanbar.Org/groups/litigation/publications/l
itigation-news/top-stories/2018/appellate-reAdew-alloweddespite-failure-to-preserve-issue-below/

20

The U.S. Court of Appeals for the Third
Circuit reviewed a question of law,
although the appellant failed to preserve
the issue. The court held the appellant
forfeited the issue rather than waived it.
ABA Section of Litigation leaders caution
that practitioners at both the trial and
appellate court levels should learn this
distinction.
C. The question of whether, and under what
circumstances, an issue is either clearly
preserved for appellate review or may
otherwise be reached is of immense
public importance, and of national
significance.
This Court has previously addressed this subject
in both Hormel v. Helvering, 312 U.S. 552 (1941) and
United States v. Olano, 507 U.S. 725, 733 (1993).
More recently, it has observed that “appellate claims
are likely to be ill defined or unknown at the filing
stage.” See Garza v. Idaho, 139 S. Ct. 738, 741
(2019). Even the Supreme Court of New Hampshire
acknowledges that to preserve an argument for
appeal the appellant need not have articulated his
arguments to the trial court in precisely the same
manner as he has on appeal. See In the Matter of
McAndrews & Woodson, 193 A.3d 834, 840 N.H.
(2018). Even if an issue has not been fully considered
below, Barna demonstrates that it might still be

21
reached by an appellate court if the appellate court
believes the issue has been “forfeited” rather than
“waived.” Indeed, even waiving an appellate claim
does not necessarily always serve as an absolute bar
to such a claim proceeding. See Garza v. Idaho, 139
S. Ct. 738, 741 (2019).
This case presents this Court with a vehicle to
determine whether all or some portion of the Third
Circuit’s reasoning in Barna should be binding on all
lower federal and State courts.
VL The Supreme Court of New Hampshire’s
decision is wrong and deeply troubling.
A. The
court
declined
to
consider
Petitioner’s argument that California law
controls whether real property in
California owned by a California trust is
part of a New Hampshire marital estate.
The court’s refusal to reach this issue has
resulted in a “miscarriage of justice.” It did not rule
on the merits of Petitioner’s argument or perform
any conflicts of law analysis.
B. The court failed to apply the required
due process analysis.
The New Hampshire Supreme Court did not
state whether it believed Petitioner either forfeited
or waived his argument. See United States v. Olano,

22

507 U.S. 725, 733 (1993). Further, as Hormel v.
Helvering, 312 U.S. 552 (1941) states:
Rules of practice and procedure are
devised to promote the ends of justice, not
to defeat them. A rigid and undeviating
judicially declared practice under which
courts of review would invariably and
under all circumstances decline to consider
all questions which had not previously
been specifically urged would be out of
harmony with this policy.
“‘[D]ue process,’ unlike some legal rules, is not a
technical conception with a fixed content unrelated
to time, place and circumstances.” See Mathews v.
Eldridge, 424 U.S. 319, 334 (1976) (alteration in
original). Rather, “[D]ue process is flexible and calls
for such procedural protections as the particular
situation demands.” See Id. (internal citations
omitted). Accordingly, resolution of the issue of
whether Petitioner “establish[ed] that he preserved
his argument” also “requires analysis of the
governmental and private interests that are
affected.” See Id. (internal citations omitted). More
precisely:
The specific dictates of due process
generally requires consideration of three
distinct factors: First, the private interest
that will be affected by the official action;
second, the risk of an erroneous

23

deprivation of such interest through the
procedures used, and the probable value, if
any, of additional or substitute procedural
safeguards; and finally, the Government’s
interest, including the function involved
and the fiscal and administrative burdens
that the additional or substitute
procedural requirement would entail.” See
Id. (internal citations omitted).
The New Hampshire Supreme Court did not
consider these three distinct factors. First, the
parties’ private interest was substantially affected.
Second, there was substantial risk of an erroneous
deprivation of such interest through the procedures
used. Finally, the court should have considered the
probable value of “additional or substitute procedural
safeguards.”
C. New Hampshire has no sufficient policy
considerations to warrant its refusal to
consider or apply California’s laws.
Title to the California property is held by a
California trust and neither party is a trustee.
In order to include the California property in the
New Hampshire marital estate, the State of New
Hampshire would require jurisdiction to order the
conveyance of title to one or both of the parties.

24
The State of California has sole jurisdiction to
determine the ownership of real property within its
borders.
Petitioner’s father, David Albrecht, is the sole
surviving trustee of the estate trust. He is a legal
resident of the State of California. No New
Hampshire court has personal jurisdiction over
Petitioner’s father. Consequently no order or decree
of a New Hampshire court may be enforced upon
Petitioner’s father except by comity with the State of
California.
No New Hampshire court has subject matter
jurisdiction to settle Petitioner’s mother’s estate or
compel the distribution of property from the
California estate trust.
Consequently, the State of New Hampshire lacks
any jurisdiction to order the conveyance of title for
the California property to either party.
Inclusion of the California real property, held by a
California trust, where neither party is trustee, in
the New Hampshire marital estate would constitute
“a policy of hostility to the public Acts” of the State of
California by the State of New Hampshire.

25

CONCLUSION
The petition for a writ of certiorari should be
granted.

Respectfully submitted,
DANA ALBRECHT
Petitioner Pro Se
131 D.W. Hwy #235
Nashua, NH 03060
(603)809-1097
dana. albrecht@hushmail. com
July 11, 2019

